U.S. Department of Labor	               Office of Inspector General
                                        Washington, D.C. 20210




June 19, 2012


Donna Whitt
Senior Vice President
Finance and Operations/CFO
National Council on Aging, Inc.
1901 L Street, NW, Suite 400
Washington, D.C. 20036

      Recovery Act: Quality Control Review Single Audit of the National
      Council on Aging, Inc. for the Year Ended June 30, 2011

Dear Ms. Whitt:

The purpose of this final report (Report Number 18-12-005-03-360) is to formally
advise you of the results of a Quality Control Review (QCR) the U.S. Department
of Labor (DOL), Office of Inspector General conducted of the following audit
performed by Aronson LLC under the Federal Single Audit Act (Act) and Office of
Management and Budget Circular A-133 (A-133):

      Single Audit of the National Council on Aging, Inc. for the Year
      Ended June 30, 2011

The objectives of the QCR were to determine whether: (1) the audit was
conducted in accordance with applicable standards and met the single audit
requirements, (2) any follow-up work is needed, and (3) there are any issues that
may require management’s attention.

The major programs included in our review were as follows:

DOL Major Programs Reviewed
                                       Catalog of Federal
Major Program                        Domestic Assistance              DOL Funds
                                                 Number                Expended
Senior Community Service
Employment Program (SCSEP)                                17.235      $45,404,285
Recovery Act - SCSEP                                      17.235          145,425
 Total DOL Funds Expended 	                                           $45,549,710

                      Working for America’s Workforce
                                        -2-



Based on our review of the audit documentation related to the programs above,
we determined that the audit work performed was acceptable and met the
requirements of the Act and A-133. No follow-up work is required and there are
no issues that require management’s attention.

Since our review included Recovery Act funds, we are required by the Recovery
Act to post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s website www.recovery.gov.

If you have any questions concerning the results of the QCR, please contact
Melvin F. Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: Mr. Craig Stevens, Partner
    Aronson LLC

    Ms. Darlene Lucas, Audit Liaison
    Employment and Training Administration

    Mr. Stephen Daniels, Director
    Division of Policy, Review and Resolution
    Employment and Training Administration
